   April 13, 2005




Infrastructure and Environment

American Forces Information Service’s
Data Call Submissions and Internal
Control Processes for Base Realignment
and Closure 2005
(D-2005-050)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To request copies of this report, contact Ms. Kimberley A. Caprio at (703) 604-
  9202 (DSN 664-9202) or Ms. Rhonda L. Ragsdale at (703) 604-9347 (DSN 664-
  9347).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

AFIS                American Forces Information Service
BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DA&M                Director, Administration and Management
DoD OIG             Department of Defense Office of Inspector General
DWO                 Defense-Wide Organizations
HSA                 Headquarters and Support Activities
ICP                 Internal Control Plan
JCSG                Joint Cross Service Group
JPAT 7              Joint Process Action Team Criterion Number 7
OSD                 Office of Secretary of Defense
                              INSPECTOR        GENERAL
                              DEPARTMENT     OF DEFENSE
                                400 ARMY NAVY DRIVE
                          ARLINGTON,    VIRGINIA  22202-4704




                                                                                Apri113,2005
MEMORANDUM FOR DIRECTOR, AMERJCANFORCES INFORMATION
                 SERVICE

SUBJECT: Report on American Forces Information Service's Data Call Submissions
         and Internal Control Processesfor Base Realignment and Closure 2005
         (Report No. D-2005-050)


        We are providing this report for infonnation and use. No written responseto this
report was required and none was received. Therefore, we are publishing this report in
final fonn.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202) or Ms. Rhonda L.
Ragsdaleat (703) 604-9347 (DSN 664-9347). SeeAppendix B for the report
distribution. The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:


                                               Richard   B.   J~~--   7/   --
                                 ~~..8.-,~h~


                                                Acting Director
                                           for Contract Management
                    Department of Defense Office of Inspector General
Report No. D-2005-050                                                                   April 13, 2005

      (Project No. D2004CB-0108.000)

                   American Forces Information Service’s Data Call
                     Submissions and Internal Control Processes
                       for Base Realignment and Closure 2005

                                        Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and American Forces
Information Service management personnel should read this report. The report discusses
the validity and integrity of the data provided by American Forces Information Service to
assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
are collectively known as the second data call. We issued two memorandums
summarizing the audit results for the capacity analysis and second data calls. This report
summarizes issues related to the entire American Forces Information Service
BRAC 2005 process, as of February 1, 2005.

With headquarters at Alexandria, Virginia, the American Forces Information Service, a
Defense-Wide Organization,* is the principal internal information organization within
DoD. The American Forces Information Service works directly for the Assistant
Secretary of Defense for Public Affairs to provide high-quality news, information, and
entertainment to United States Forces around the world and comprises 11 components.
American Forces Information Service responsibilities include publishing the Stars &
Stripes newspaper that is printed at six sites overseas and provides a free flow of
information to U.S. military personnel, DoD civilians, and their families. Except for the
*
    Defense-Wide Organization is a collective term used for 11 Defense organizations.
capacity analysis data call, American Forces Information Service Headquarters
responded for each of its 11 components.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense’s and the
Defense-Wide Organizations’ internal control plans at two sites for the capacity analysis
data call, one site for the second data call, and one site for the scenario specific data call
(see Appendix A for a list of sites visited). As of our January 18, 2005, site visit, the
American Forces Information Service had received and we reviewed two scenario
specific data calls. Subsequent to our site visit, the Joint Process Action Team Criterion
Number 7 group may have requested further changed responses; however, we will not
review those responses. Once corrections were made, American Forces Information
Service responses to the BRAC 2005 data calls were generally supported, complete, and
reasonable; however, American Forces Information Service did not have supporting
documentation for responses to one scenario specific data call question. The American
Forces Information Service’s data collection processes generally complied with
applicable internal control plans. Furthermore, the Defense-Wide Organizations’ internal
control plan, used by the American Forces Information Service, properly incorporated the
Office of the Secretary of Defense’s internal control plan. The lack of supporting
documentation for one question in the scenario specific data calls was not material and
should not impact the reliability of the American Forces Information Service data in
BRAC 2005 analysis.

Management Comments. We provided a draft of this report on March 15, 2005. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                              ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 3

Finding
     American Forces Information Service BRAC 2005 Data Call Submissions
       and Internal Control Processes                                       4

Appendixes
     A. Scope and Methodology                                               8
     B. Report Distribution                                                12
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations.
    The law authorizes the establishment of an independent Commission to review
    the Secretary of Defense recommendations for realigning and closing military
    installations. The Secretary of Defense established and chartered the
    Infrastructure Executive Council and the Infrastructure Steering Group as the
    Base Realignment and Closure (BRAC) 2005 deliberative bodies responsible for
    leadership, direction, and guidance. The Secretary of Defense must submit
    recommendations to the independent Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. Office of the Secretary of Defense (OSD) established seven Joint
    Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls:
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls are collectively known as the second data call.
    The Services, Defense agencies, and Defense-Wide Organizations (DWO) used
    either automated data collection tools or a manual process to collect data call
    responses. Each data call had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs associated with
               realigning or closing specific functions or bases;




                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.1

                    •    The scenario specific data call gathered data related to scenarios for
                         realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003,
           requires the Department of Defense Office of Inspector General (DoD OIG) to
           provide internal control plan (ICP) development and implementation advice,
           review the relevance and completeness of BRAC data, and evaluate the data
           certification processes. In addition, the memorandum requires DoD OIG
           personnel to assist the JCSGs and DoD Components as needed. This report
           summarizes the results of the DoD OIG efforts related to the American Forces
           Information Service (AFIS) BRAC 2005 process.

           DWOs. DWO is a collective term for 11 Defense organizations.2 AFIS is one of
           the 11 DWOs. The OSD Director, Administration and Management (DA&M) led
           the DWO BRAC 2005 process, and was responsible for collecting and submitting
           BRAC data for the DWOs. The OSD DA&M was the primary data repository for
           all DWO data collections and requests and assembled and forwarded BRAC-
           related data to the OSD BRAC Office and the JCSGs.

           ICPs. An ICP outlined internal control procedures designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released, OSD required the JCSGs, Services, Defense agencies, and DWOs to
           prepare ICPs that incorporated and supplemented the OSD ICP. The OSD ICP
           was distributed under the Under Secretary of Defense for Acquisition,
           Technology, and Logistics’ memorandum “Transformation Through Base
           Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
           Responsibilities, and Procedures,” April 16, 2003. The OSD DA&M prepared the
           “Defense-Wide Organizations Internal Control Plan for the 2005 Base
           Realignment and Closure Process,” dated January 15, 2004. The overall DWO
           ICP and Appendixes L and M of the DWO ICP apply to the 11 DWOs. Each
           DWO was responsible for preparing an organization-specific appendix, to
           supplement the overall DWO ICP; Appendix J applied to AFIS. The DWO ICP
           was updated on August 2, 2004, and the DWOs changed from a manual process to
           the data gathering tool.3 For the second and scenario specific data calls, AFIS
           used the August 2, 2004, DWO ICP.



1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.
2
    The 11 organizations that comprise the DWOs are OSD, Joint Chiefs of Staff, DoD OIG, Office of
    Economic Adjustment, Department of Defense Education Activity, Defense Human Resource Activity,
    TRICARE Management Activity, American Forces Information Service, Defense Prisoner of
    War/Missing Personnel Office, Defense Technology Security Administration, and Washington
    Headquarters Services.
3
    A modified Microsoft Access tool for those not using an automated data collection tool.



                                                        2
           AFIS. With headquarters at Alexandria, Virginia, AFIS is the principal internal
           information organization within DoD. AFIS works directly for the Assistant
           Secretary of Defense for Public Affairs to:

               •   provide high-quality news, information, and entertainment to U.S. Forces;

               •   train all public affairs, broadcast, visual information professionals,
                   military, and DoD civilians; and

               •   provide U.S. military commanders with communications management,
                   distribution, and technical services to support their internal information
                   objectives.

           AFIS is composed of 11 different components4 to guarantee a well-informed
           military that promotes an effective and committed military. Under one
           component, AFIS publishes the Stars & Stripes newspaper that is printed at six
           sites overseas and provides a free flow of information to U.S. military personnel,
           DoD civilians, and their families. We visited two sites for the capacity data call,
           and one site for the second and scenario specific data calls. We visited only one
           site for the second and scenario specific data calls because AFIS Headquarters
           responded for each of the 11 components. See Appendix A for a list of sites
           visited and questions reviewed for each data call.


Objectives
           The overall objective of the audit was to evaluate the validity, integrity, and
           supporting documentation of data that AFIS collected and submitted for the
           BRAC 2005 process. In addition, we evaluated whether AFIS complied with the
           OSD and DWO ICPs. This report is one in a series on data call submissions and
           internal control processes for BRAC 2005. See Appendix A for a discussion of
           the scope and methodology, our review of management controls, and prior audit
           coverage related to the objectives.




4
    The 11 different information components are Armed Forces Radio and Television, Defense Information
    School, Defense Visual Information Directorate, Defense Visual Information Center, Joint Visual
    Information Services Distribution Activity, Information Operations Directorate, Policy and Alliances
    Directorate, Stars and Stripes, Television-Audio Support Activity, Resources Management Directorate,
    and Information Resource Management Directorate.



                                                     3
           American Forces Information Service
           BRAC 2005 Data Call Submissions and
           Internal Control Processes
           After corrections were made, AFIS responses to the BRAC 2005 data calls
           were generally supported, complete, and reasonable; however, AFIS did
           not have supporting documentation for responses to one scenario specific
           data call question. AFIS sites generally complied with both the OSD and
           the AFIS ICPs and had properly incorporated the OSD ICP. The lack of
           supporting documentation for one question in the scenario specific data
           calls was not material and should not impact the reliability of the AFIS
           data for use in BRAC 2005 analysis.


AFIS BRAC 2005 Data Call Submissions
    As a result of our review, the responses provided by AFIS to the BRAC 2005 data
    calls were generally supported, complete, and reasonable; and the “Not
    Applicable” responses were reasonable. For the capacity analysis, second, and
    scenario specific data calls, AFIS provided either an answer or a “Not
    Applicable” response to the questions. A “Not Applicable” response was
    provided when AFIS management determined that the question did not apply to
    AFIS. To ensure accuracy, we compared the AFIS responses to supporting
    documentation and reviewed the responses to ensure reasonableness and
    completeness.

    Capacity Analysis Data Call. As a result of our review, the two AFIS sites
    visited for the capacity analysis data call provided responses that were supported,
    complete, and reasonable; and the “Not Applicable” responses were reasonable.
    OSD DA&M forwarded to AFIS Headquarters 75 capacity analysis data call
    questions. AFIS BRAC officials reviewed the questions and selected specific
    questions to forward to the Stars and Stripes site and questions for AFIS
    Headquarters to answer. Specifically, AFIS Headquarters answered 75 questions
    for Headquarters and all components except Stars and Stripes and forwarded
    74 questions to Stars and Stripes.

    We evaluated the responses and supporting documentation at AFIS Headquarters,
    Alexandria, Virginia, and Stars and Stripes, Washington, D.C. At the two sites,
    we identified responses lacking reasonable support and responses that were
    inconsistent with support provided. Based on our review and discussions with the
    AFIS BRAC official, the AFIS sites revised inconsistent responses and provided
    supporting documentation to correct each of the issues raised. We verified and




                                         4
concurred with the revisions. AFIS Headquarters forwarded the revised
responses to the OSD DA&M; however, we did not verify that the responses
made it into the OSD Database.

Second Data Call. AFIS Headquarters responded for all components to
53 questions received from OSD DA&M and, after corrections were made, the
responses were generally supported, complete, and reasonable. Specifically, the
answers were supported, complete, and reasonable; and the “Not Applicable”
responses were reasonable. We evaluated the responses and identified those
lacking reasonable support or that were inconsistent with the support provided.
Based upon our review and discussions with the AFIS BRAC official, AFIS
revised inconsistent responses and provided supporting documentation to correct
each of the issues raised. We verified and concurred with the revisions. AFIS
Headquarters forwarded the revised responses to the OSD DA&M; however, we
did not verify that the responses made it into the OSD Database.

During the January 18, 2005, scenario specific data call site visit, we also
reviewed JPAT 7 questions from an error and omissions report prepared by the
JPAT 7 group, dated January 3, 2005, for the AFIS responses identified as either
blank or out of the ordinary. We reviewed the errors and omissions identified by
the JPAT 7 report and determined whether AFIS had taken actions to resolve the
identified errors and omissions. Based on our review and discussion with the
AFIS BRAC official, AFIS Headquarters resolved each of the identified errors
and omissions. We verified and concurred with the resolutions. AFIS
Headquarters forwarded the revised responses to the OSD BRAC Office;
however, we did not verify that the responses made it into the OSD Database.
Subsequent to our site visit, the JPAT 7 group may have requested further
changed responses; we did not review those responses.

Scenario Specific Data Call. AFIS Headquarters responded for all AFIS
components to the two scenario specific data calls received and the responses
were generally supported, complete, and reasonable. For each scenario specific
data call, AFIS was required to respond to the same three questions. We
evaluated the responses and supporting documentation and identified responses
lacking reasonable support. Specifically, AFIS did not provide reasonable
support for responses to Section 6.1.1. The responses to Section 6.1.1 were used
to respond to both scenario specific data calls. Section 6.1.1 required the listing
of unusual support equipment and the weight of each piece of equipment. The
AFIS BRAC official listed and estimated the weights of the unusual support
equipment needed by AFIS, but did not adequately document how the weights
were determined. Based on our review and discussions with the AFIS BRAC
official, AFIS provided supporting documentation to correct each of the issues
raised, except for those relating to Section 6.1.1 for both scenario specific data
call questions. We verified and concurred with the changes; however, the AFIS




                                     5
     response to Section 6.1.1 remained unsupported as of February 1, 2005. The
     AFIS BRAC official initially certified the responses to the scenario specific data
     calls; however, any revised responses were not certified.


Internal Control Processes
     The AFIS site data collection process for the second data call and the scenario
     specific data call complied with applicable ICPs. However, during the capacity
     analysis data call, AFIS did not initially fully comply with ICP procedures. The
     AFIS ICP properly incorporated the OSD ICP. We evaluated compliance with
     the OSD and AFIS ICPs at two sites for the capacity analysis data call, one site
     for the second data call, and one site for the scenario specific data call. We
     evaluated whether sites completed nondisclosure agreements, properly maintained
     e-mail information, appropriately marked and safeguarded BRAC data, and
     maintained completed BRAC data files and ensured that the AFIS ICP
     incorporated the OSD ICP.

     Compliance with ICPs. AFIS sites were generally compliant with the ICP
     procedures with one exception. The ICP procedures required that hard copies of
     BRAC 2005 data, information, documents, reports, and backup materials be
     maintained and be adequately safeguarded, as well as all BRAC 2005 data be
     deemed and marked as draft deliberative or sensitive, or both. We determined
     that AFIS Headquarters personnel did not properly mark documentation as draft
     deliberative documents. However, during our review, AFIS properly marked the
     BRAC 2005 documentation in accordance with the DWO ICP. Furthermore, in
     accordance with the OSD and AFIS ICPs, the AFIS BRAC officials completed
     nondisclosure agreements, properly maintained e-mail information, appropriately
     safeguarded BRAC data, and maintained complete BRAC data files.

     Completeness of ICPs. The AFIS ICP outlined management controls designed
     to ensure the accuracy, completeness, and integration of all information and
     analytical processes upon which DWO submits documents, data, and information
     used in the BRAC 2005 process. The ICP established BRAC 2005
     responsibilities of AFIS organizations and control mechanisms to safeguard AFIS
     BRAC information. The ICPs outlined requirements for verifying the accuracy of
     data and information. In addition, the ICP identified required documentation to
     justify changes made to data and information received from subordinate levels of
     the organization. Specifically, the ICP included direction on the completion of
     nondisclosure agreements; the maintenance of e-mail information; and the
     collection, marking, safeguarding, and maintenance of BRAC data.


Conclusion
     Once corrections were made, prior to the conclusion of our review, AFIS BRAC
     2005 data calls were generally supported, complete, and reasonable; however,
     AFIS did not have supporting documentation for one scenario specific data call
     question. The AFIS data collection processes generally complied with applicable
     ICPs and the AFIS ICP properly incorporated the OSD ICPs. Finally, we
     consider the lack of supporting documentation for one question in the scenario


                                          6
specific data calls to be immaterial and therefore will not impact the reliability of
the AFIS data for use in BRAC 2005 analysis.




                                      7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of AFIS
   BRAC 2005 data. The evaluation included comparing question responses to
   supporting documentation and reviewing “Not Applicable” responses to
   determine whether they were reasonable. Questions required either an answer or
   a “Not Applicable” response; a “Not Applicable” response was provided when
   AFIS BRAC officials determined that the questions did not to apply to a location.
   We reviewed AFIS responses to the JPAT 7 errors and omissions report, dated
   January 3, 2005. We evaluated whether the DWO ICP incorporated the
   requirements of the OSD ICP. We also evaluated site data collection processes to
   determine whether they were in compliance with the DWO ICP by completing
   nondisclosure agreements and maintaining e-mail information; and collecting,
   marking, safeguarding, and maintaining BRAC data. In addition, we interviewed
   the personnel responsible for answering, reviewing, and certifying the responses
   to the data calls. We did not verify that the responses made it into the OSD
   Database.

   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed DWO BRAC officials to answer 75 of 752 capacity analysis data call
   questions identified as applicable to DWOs by the HSA JCSG. OSD DA&M also
   directed the DWO trusted agents to review the rest of the questions to determine
   if any were applicable. OSD DA&M forwarded to AFIS Headquarters
   75 capacity analysis data call questions. Specifically, AFIS Headquarters
   answered the 75 questions and targeted 74 questions to Stars and Stripes. AFIS
   did not review the remaining questions to determine if any were applicable to
   them. We did not validate the selection process of the OSD DA&M or the
   questions that were not forwarded to the sites.

   We evaluated the data call responses at the two AFIS sites visited. We visited
   AFIS Headquarters, Alexandria, Virginia, and Stars and Stripes, Washington,
   D.C., in the continental United States. AFIS Headquarters data call responses
   included all AFIS components, except Stars and Stripes. We issued one site
   memorandum to summarize the results of these site visits. The table below
   identifies the questions reviewed at each site.




                                       8
                         Capacity Analysis Data Call Questions Reviewed

                    AFIS Site                                    Question Number
                                                     Answered                   Not Applicable
AFIS Headquarters,                           461-462, 466, 468, and 471 311, 313-329, 347-388,
Alexandria, Virginia                                                      393, 446-448, 464, 478,
                                                                          480-482, and 582
National Press Building (Stars and Stripes), 462, 466, 468, and 471       311, 313-329, 347-388,
Washington, D.C.                                                          393, 446-448, 464, 478,
                                                                          480-482, and 582


             Second Data Call. The OSD DA&M provided guidance to the AFIS BRAC
             official, dated June 18, 2004, June 23, 2004, and July 22, 2004, to answer 11 of
             83 HSA JCSG military value questions (1905, 1907 through 1911, and 1913
             through 1917); 9 HSA JCSG supplemental capacity questions (4079 through
             4081, 4096, 4099, and 4100 through 4103); 8 COBRA questions (1500 through
             1507); and 20 JPAT 7 questions (1400 through 1417 and 1420 through 1421).
             OSD DA&M also directed the DWO trusted agents to review the remaining HSA
             JCSG military value questions to determine if any were applicable. AFIS
             reviewed the remaining HSA JCSG military value questions and responded to
             five additional HSA JCSG military value questions (1900, 1904, 1906, 1912, and
             1918). We did not validate the selection process or the questions not forwarded
             to the sites. However, AFIS complied with the OSD requirement to have all
             stand-alone facilities, which included leased facilities, answer JPAT 7 and
             COBRA data call questions. AFIS Headquarters was in a leased facility.

             We evaluated the data call responses at AFIS Headquarters, which responded for
             all AFIS components. Specifically, we reviewed the following question
             responses and support at AFIS Headquarters and issued one site memorandum to
             summarize the results:

                     •   JPAT 7 questions 1400 through 1417, 1420, and 1421;* COBRA
                         questions 1501 and 1503 through 1505; HSA JCSG military value
                         questions 1904 through 1908, 1911 through 1913, and 1916 through
                         1918; and HSA JCSG supplemental capacity questions 4099 through
                         4103 with responses.




  *
      The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
      1420 and 1421.



                                                      9
           •   COBRA questions 1500, 1502, 1506, and 1507; HSA JCSG military
               value questions 1909, 1910, 1914, and 1915; and HSA JCSG
               supplemental capacity questions 4079 through 4081 and 4096 with a
               “Not Applicable” response.

    Scenario Specific Data Call. As of our site visit on January 18, 2005, AFIS
    Headquarters received two scenario specific data calls from the JCSGs and
    submitted responses. We evaluated the responses, as well as reviewed JPAT 7
    questions from an errors and omissions report prepared by the JPAT 7 group,
    dated January 3, 2005, for AFIS responses that were either left blank or out of the
    ordinary. We reviewed the following at AFIS Headquarters:

           •   scenario specific data calls HSA-0071 and HSA-0104; and

           •   AFIS Headquarters JPAT 7 errors and omissions questions 1401,
               1405, and 1406.

    We performed this audit from March 2004 through February 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support an answer to a data call question
    because of time constraints. Potential inaccuracies in the data could impact the
    results. However, the appointed certifying official certified the AFIS BRAC data
    as accurate and complete to the best of the certifier’s knowledge and belief. We
    did not review the data gathering tool used by AFIS.

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Real Property and DoD Support
    Infrastructure Management high-risk areas.


Management Control Program Review
    We did not review the AFIS management control program because its provisions
    were not deemed applicable to the one-time data collection process. However, we
    evaluated the AFIS internal control procedures for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    that AFIS used to develop, submit, and document its data call responses. In
    addition, we reviewed the controls implemented to safeguard the premature

    disclosure of AFIS BRAC data before responses were forwarded to the OSD
    BRAC Office. Internal control procedures were adequate as they applied to the
    audit objective (see finding for additional details).




                                        10
Prior Coverage
    During the last 5 years, the DoD Inspector General has issued two memorandums
    related to AFIS BRAC 2005.

DoD IG
    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission of American
    Forces Information Service for Base Realignment and Closure 2005,”
    November 17, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission of
    American Forces Information Service for Base Realignment and Closure 2005,”
    April 28, 2004




                                      11
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Director, American Forces Information Service

Non-Defense Federal Organizations
Government Accountability Office∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.




                                                    12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Kimberley A. Caprio
Deborah L. Culp
Rhonda L. Ragsdale
Robert P. Goldberg
Patrice L. Berry
Leon D. Bryant
Maurice L. Foster
Rachel M. Miller
Meredith H. Johnson
